No. 20-261

3fn the supreme Court of the

Stateo

JEFF SCHULZ, ELLEN SCHULZ, LIZ CEDERGREEN, DAVID MARTIN, LINDSEY MCDOWELL
GEORGE NORRIS, NATHAN ORONA, AND KATHRYN OSTROM, AS TRUSTEES OF THE FIRST
PRESBYTERIAN CHURCH OF SEATTLE, A WASHINGTON NONPROFIT CORPORATION,
PETITIONERS
V.
THE PRESBYTERY OF SEATTLE, ET AL., RESPONDENTS
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on November 16, 2020, three
copies of petitioners' reply to the brief in opposition in the above-captioned case were
served by U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
ROBERT B. MITCHELL
PETER A. TALEVICH
K&L Gates LLP
925 Fourth Avenue, Suite 2900
Seattle, WA 98104-1158
(206) 623-7580
Counsel for Respondents
LUKE W. GOODRICH
The Becket Fund for Religious Liberty
1200 New Hampshire Ave N.W.
Suite 700
Washington, DC 20036
(202) 955-0095
Counsel for Amicus Curiae The Becket Fund for Religious Liberty
RYAN THOMAS HOLT
Sherrard Roe Voigt & Harbison, PLC
150 3rd Avenue South, Suite 1100
Nashville, TN 37201
(615) 742-4200
Counsel for Amicus Curiae Anglican Church in North America

PAUL J. ZIDLICKY
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20009
(202) 736-8000
Counsel for Amici Curiae Law and Religion and Constitutional Law Professors
The following email addresses have also been served electronically:
rob.mitchell@klgates.com
peter.talevich@klgates.com
lgoodrich@becketlaw.org
rholt@srvhlaw.com
pzidlicky@sidley.com

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

